No. ___________

In The
Supreme Court of the United States
MAKO ONE CORPORATION, ET AL.,

Petitioners,
v.
CEDAR RAPIDS BANK AND TRUST, ET AL.,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
FROM THE UNITED STATES COURT OF APPEALS FOR THE
EIGHTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Jack Duran, Jr.
4010 Foothills Blvd
S-103, #98
Roseville, California 95747
916-779-3316
Duranlaw@yahoo.com

Certificate of Service, Per Rule 29(5)
As required by Supreme Court Rule 29(5), I certify that, on this 20th day of
November, 2019, three (3) copies of this Petition for a Writ of Certiorari was served
on counsel for Respondent Richard Moeller, Berenstein & Moore, 501 Pierce Street
P.O. Box 3207 Sioux City, IA 51102-3207, via United States Postal Service Priority
mail with delivery confirmation. I declare under penalty of perjury that the
foregoing is true and correct.

Executed on November 20 , 2019

/S/JACK DURAN JR
JACK DURAN Jr.
Attorney for Petitioner

